No. 20-1375

 

 

IN THE

Supreme Court of the Anited States

KRISTINA BOX, COMMISSIONER, INDIANA STATE DEPARTMENT OF HEALTH, et al.,
Petitioners,
Vv.
PLANNED PARENTHOOD OF INDIANA AND KENTUCKY, INC.,
Respondent.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this 3°
day of May, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3) copies of
the foregoing BRIEF AMICUS CURIAE OF AMERICANS UNITED FOR LIFE IN
SUPPORT OF PETITIONERS by placing said copies in the U.S. mail, first class
postage prepaid, addressed as listed below.

Thomas M. Fisher Jennifer R. Sandman
Office of the Indiana Attorney General Planned Parenthood
IGC-South, Fifth Floor Federation of America
302 W. Washington 123 William Street
Indianapolis, IN 46204 9" Floor
tom.fisher@atg.in.gov New York, NY 10038

Jennifer.sandman@ppfa.org

 

 

ON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203

District of Columbia

Signed and sworn to (or affirmed) before me on 3™ day of May, 2021.

 

NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2025.

 

 
